U.S. SMALL BUSINESS ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL




             Report No. 14-01




Report on the Most Serious Management and
          Performance Challenges
 Facing the Small Business Administration
            In Fiscal Year 2014

             October 31, 2013
                               U.S. SMALL BUSINESS ADMINISTRATION
                                  OFFICE OF INSPECTOR GENERAL
                                     WASHINGTON, D.C. 20416

                                            October 31, 2013


MEMORANDUM


TO:             Jeanne Hulit
                Acting Administrator

FROM:           Peggy E. Gustafson /s/
                Inspector General

SUBJECT:        Report on the Most Serious Management and Performance Challenges Facing the
                Small Business Administration in Fiscal Year 2014

In accordance with the Reports Consolidation Act of 2000, we are providing you with the Office of
Inspector General’s (OIG) Report on the Most Serious Management and Performance Challenges
Facing the Small Business Administration (SBA) in Fiscal Year (FY) 2014.

This report represents our current assessment of Agency programs and/or activities that pose significant
risks, including those that are particularly vulnerable to fraud, waste, error, mismanagement, or
inefficiencies. The Challenges are not presented in order of priority, as we believe that all are critical
management or performance issues.

Our report is based on specific OIG, Government Accountability Office (GAO), and other reports, as
well as our general knowledge of SBA’s programs and operations. Our analysis generally considers
those accomplishments that the SBA reported as of September 30, 2013.

Within each Management Challenge, there are a series of “recommended actions” to resolve the
Challenge. Each recommended action is assigned a color “status” score. The scores are as follows:
Green for “Implemented,” Yellow for “Substantial Progress,” Orange for “Limited Progress,” and Red
for “No Progress.” An arrow in the color box indicates that the color score went up or down from the
prior year. If a recommended action was added since last year’s report, no color score has been
assigned and the recommended action has been designated as “New.”

As part of the OIG’s continuing evaluation of the Management Challenges, certain Challenges have
been updated or revised. In addition, actions that were scored Green last year, which remained Green
this year, have been moved up to the “history bar” above the recommended actions. The history bar
highlights any progress that the Agency has made on a Challenge over the past four fiscal years (or as
long as the Challenge has existed, if shorter) by showing the number of actions that have moved to
Green each year. The following table provides a summary of the Most Serious Management and
Performance Challenges Facing the SBA in FY 2014.
Table 1. Summary of the Most Serious Management and Performance Challenges Facing the
SBA in FY 2014.



Number                      Challenge                Green   Yellow Orange     Red     Up #   Down#

   1     Small Business Contracting                             2                       2

   2     IT Security                                   1        2       1       1       1          1

   3     Human Capital                                 1        3                       3

   4     Loan Guaranty Purchase                                 1

   5     Lender Oversight                              4                2               2

   6     8(a) Business Development Program                      1       1       1

   7     Loan Agent Fraud                                       1

   8     Loan Management and Accounting System                  1       3               3

   9     Improper Payments– 7(a) Program               1        5                       4

   10    Improper Payments-Disaster Loan Program                1

   11    Acquisition Management                                         5

                            TOTAL                      7       17       12      2       15         1




We would like to thank the SBA’s management and staff for their cooperation in providing us with
information needed to prepare this report. We look forward to continuing to work with the SBA’s
leadership team in addressing the Agency’s Management Challenges.
Contents

Challenge 1. Procurement flaws allow large firms to obtain small business awards and agencies to
             count contracts performed by large firms towards their small business goals

Challenge 2. Weaknesses in information systems security controls pose significant risks to the
             Agency

Challenge 3. Effective human capital strategies are needed to enable the SBA to carry out its mission
             successfully and become a high-performing organization

Challenge 4. The SBA needs to implement a quality control program in its loan centers

Challenge 5. The SBA needs to further strengthen its oversight of lending participants

Challenge 6. The Section 8(a) Business Development program needs to be modified so more firms
             receive business development assistance, standards for determining economic
             disadvantage are justifiable, and the SBA ensures that firms follow 8(a) regulations
             when completing contracts

Challenge 7. Effective tracking and enforcement would reduce financial losses from loan agent fraud

Challenge 8. The SBA needs to modernize its Loan Accounting System and migrate it off the
             mainframe

Challenge 9. The SBA needs to accurately report, significantly reduce, and strengthen efforts to
             recover, improper payments in the 7(a) loan program

Challenge 10. The SBA Needs to Significantly Reduce Improper Payments in the Disaster Loan
              Program

Challenge 11: The SBA Needs to Effectively Manage the Acquisition Program

Appendix: Relevant Reports
 Challenge 1. Procurement flaws allow large firms to obtain small business awards and agencies to
 count contracts performed by large firms towards their small business goals.
                                                                                      Fiscal Year Issued: 2005

The Small Business Act established a government-wide goal that 23 percent of the total value of all prime
contract awards for each fiscal year (FY) be to small businesses. As the advocate for small business, the
SBA should strive to ensure that only small firms obtain and perform small business awards. Further, the
SBA should ensure that procuring agencies accurately report contracts awarded to small businesses when
representing its progress in meeting small business contracting goals.
Previous OIG audits and other governmental studies have shown widespread misreporting by procuring
agencies since many contract awards that were reported as having gone to small firms have actually been
performed by larger companies. While some contractors may misrepresent or erroneously calculate their
size, most of the incorrect reporting results from errors made by government contracting personnel,
including misapplication of small business contracting rules. In addition, contracting officers do not
always review the on-line certifications that contractors enter into a governmental database prior to
awarding contracts. The SBA needs to ensure that contracting personnel are adequately trained on small
business procurement and are reviewing this database prior to awarding contracts.
The SBA also needs to address a loophole within General Services Administration (GSA) Multiple
Awards Schedule (MAS) contracts, which contain numerous industrial codes. Currently, a company
awarded such a contract can identify itself as small on individual task orders awarded under that contract
even though it does not meet the size criteria for the applicable task. Thus, agencies may obtain small
business credit for using a firm classified as small, when the firm is not small for specific orders under the
MAS contract.
The SBA made considerable progress on this challenge. By the end of FY 2013, the SBA revised and
approved its Standard Operating Procedure to ensure consistency in conducting its surveillance reviews to
assess Federal agencies’ management of their small business programs and compliance with regulations
and applicable procedures. The SBA also revised its regulations requiring firms to meet size standards
for each specific order on multiple award contracts. Additionally, the SBA will submit this final rule on
the proper classification of orders to the Federal Acquisition Regulation (FAR) Council to implement in
the FAR.




Actions Accomplished (Green Status) During Past Four Fiscal Years                       09-0    10-0 11-1    12-1


Recommended Actions for Fiscal Year 2014                                                 Status at End of FY 2013

1. Revise the surveillance review process to ensure that they are conducted in a
                                                                                                  Yellow
   thorough and consistent manner
2. Issue regulations that require firms to meet the size standard for each specific
   order they receive under a GSA schedule and Government-wide Acquisition
                                                                                                  Yellow
   Contract (GWAC) and show that the regulations are being followed. (Previously
   action 3)

  Green -     Implemented     Yellow -   Substantial Progress    Orange -    Limited Progress   Red -   No Progress
Challenge 2. Weaknesses in information systems security controls pose significant risks to the
Agency.
                                                                                        Fiscal Year Issued: 1999


The SBA’s computer security program operates in a dynamic and highly decentralized environment and
requires management attention and resources as weaknesses are continually identified. The SBA
improved its Plan of Actions and Milestones (POA&M) in FY 2013. However, the SBA needs to
address long-standing security weaknesses identified in 29 open audit recommendations. These
recommendations are in the following areas:
  The SBA’s System Software controls have six open recommendations averaging 682 days past their
    original target corrective action date. These recommendations highlight significant security
    vulnerabilities including the need for establishing baseline configurations of SBA’s IT platforms,
    establishing an effective configuration management program and timely patching of operating
    systems, devices, and database management systems.
  The SBA’s Segregation of Duty controls have seven open recommendations averaging 555 days
    past their original target corrective action date. These recommendations include restricting access
    to system software, and an effective review of system and application logs.
  The SBA’s IT Security Management program has eleven recommendations averaging 414 days
    past their original target corrective action date. Many of these vulnerabilities are statutory
    requirements which if remediated would improve SBA’s IT Security oversight as well as improve
    SBA’s compliance with FISMA guidance.
To show improvement in the above areas, SBA’s Office of Chief Information Officer, in conjunction
with SBA’s Program Offices, will need to implement tools and capabilities to provide effective
oversight and continuous monitoring of computer security controls.




Actions Accomplished (Green Status) During Past Four Fiscal Years                        09-0     10-0    11-1   12-0

Recommended Actions for Fiscal Year 2014                                                Status at End of FY 2013

1. Access controls are in place and operating effectively, and contractors are not
   granted system access until they have obtained the required background                          Yellow
   investigations and/or security clearances.
2. System software controls are in place and operating effectively.                                  Red

3. Segregation of duty controls are in place and operating effectively.                            Orange

4. The POA&M accurately reports all computer security weaknesses and corrective
                                                                                                   Green
   actions.
5. The IT security management program is effective to address information security
    in systems that support the operations and assets of the organization.                         Yellow

  Green -      Implemented    Yellow -    Substantial Progress     Orange -    Limited Progress   Red -    No Progress
 Challenge 3. Effective human capital strategies are needed to enable the SBA to carry out its
 mission successfully and become a high-performing organization.
                                                                        Fiscal Year Issued: 2001 Revised: 2007

 The SBA has experienced downsizing, high turnover, reorganizations, and realignments over the last
 several years which seriously impacted the level and scope of services that the Office of Human Capital
 Management (OHCM) provided to the Agency. In October 2011, the U.S. Office of Personnel
 Management (OPM) completed a review that identified weaknesses in the SBA’s human capital policies
 and practices highlighting the serious human capital challenges facing the Agency. In late FY 2011,
 OHCM was restructured and the Office of Human Resource Solutions (OHRS) was established. In
 2012, the Agency began reshaping by recruiting new employees with the newly identified competency
 sets and shifting full-time equivalent resources to meet the new priorities.
 In FY 2013, OHRS took several positive steps to address and mitigate this management challenge as
 reflected in the improved ratings below. For example, in May 2013, OHRS closed the 70 recommenda-
 tions resulting from OPM’s FY 2011 review. It also completed an assessment of the core competencies
 and has begun developing trainings focused on those competencies. Further, the agency established
 several initiatives designed to recruit and develop future leaders. The SBA also issued its Leadership
 Succession Plan for FYs 2013—2016.
 In FY 2013, the SBA successfully implemented a process to ensure OHRS adds value to its customers,
 primarily through the quarterly surveying of employees about OHRS’ delivery of needed strategic
 support and services. Some of OHRS’ achievements were also recognized through nominations for
 agency awards. Substantial progress was also made in FY 2013 to update Human Capital Standard
 Operating Procedures.
 In response to the human capital challenges identified by the Federal Employee Viewpoint Survey
 (EVS), OHRS established the “SBA Way” initiative to increase employee engagement and foster
 collaboration across the Agency, launched the Talent Management System to expand and more
 effectively deliver training, and the Work Life Wellness program with a special emphasis on telework.

Actions Accomplished (Green Status) During Past Four Fiscal Years                        09-0   10-0        11-0   12-0

Recommended Actions for Fiscal Year 2014                                                 Status at the End of FY 2013
1. Ensure the Agency has an effective, comprehensive workforce and succession
   plan that align talent needs and capabilities with SBA’s FY 2011-2016
   Strategic Plan. The SBA’s workforce and succession planning goals should
                                                                                                    Yellow
   reflect the need to recruit and retain the appropriate talent, and should establish
   appropriate metrics to gauge SBA’s success at having the right people, in the
   right jobs, at the right time.
2. Ensure the OHRS is structured and equipped so as to add value by delivering
   needed strategic support and services such as continuity planning, talent
                                                                                                    Green
   management, organizational development, and strategic consulting to
   implement the Agency’s human capital plan and its mission.
3. Ensure that Human Capital Management Standard Operating Procedures are
   updated and appropriately structured to support the Agency’s long-term goals                     Yellow
   and objectives and government-wide Human Capital Management initiatives.
4. Take steps to correct problems identified in the 2010 EVS. Demonstrate
                                                                                                    Yellow
   improvement by increasing overall scores/Agency rankings in the 2011 EVS.

  Green -      Implemented     Yellow -    Substantial Progress     Orange -     Limited Progress   Red -      No Progress
 Challenge 4. The SBA needs to implement a quality control program in its loan centers.
                                                                                  Fiscal Year Issued: 2007



The initial focus of this challenge was on improving deficiencies identified in the SBA’s loan
liquidation and guaranty purchase processes. Over the last decade, the agency has made significant
progress to improve these processes at its loan centers, but a deficiency continues to exist in the area of
quality control.
The Office of Financial Program Operations (OFPO) has made significant progress in developing a
Quality Control (QC) program for all of its loan centers to verify and document compliance with the
loan process, from origination to close-out, and to identify where material deficiencies may exist so that
remedial action can be taken. A QC project guide has been developed and agreed upon by relevant
parties within the Office of Capital Access. The QC program will assess the overall quality of the
centers’ deliverables to provide confidence to its stakeholders. The SBA assigned a QC manager to
oversee the development of the program and established QC specialist positions for each center.
Furthermore, the SBA (1) developed and documented Quality Program Manuals and review checklists
for each center, (2) assessed center functions by risk to prioritize required QC reviews, (3) refined
feedback, training and reporting processes, and (4) developed new systems to improve the tracking of
quality control deficiencies and corrective actions.
While the SBA has made substantial progress in its development of a quality control program,
additional work remains before the SBA can demonstrate that all elements of the QC program are being
completed and that the program is effective at identifying and correcting material deficiencies. For
example, a audit of the SBA’s FY 2011 improper payment rate in the 7(a) loan guaranty purchase pro-
gram determined that improper payment reviews executed by the QC review teams did not detect a high
number of material improper payments. Further, an ongoing OIG evaluation of the quality control pro-
gram determined that centers were not performing required reviews and that corrective actions were not
being tracked as required. In order to demonstrate that the QC program has been fully implemented,
the SBA will need to provide results showing that required QC reviews are being completed and other
evidence showing the reviews are effective at identifying and correcting material deficiencies. The
SBA made progress during FY 2013 to improve these identified deficiencies.




Actions Accomplished (Green Status) During Past Four Fiscal Years               09-0        10-1   11--0    12-0

Recommended Actions for Fiscal Year 2014                                      Status at End of FY 2013

1. Implement a Quality Assurance Program for all SBA loan centers.                            Yellow

 Green -     Implemented    Yellow -   Substantial Progress   Orange -   Limited Progress     Red -    No Progress
 Challenge 5. The SBA needs to further strengthen its oversight of lending participants.
                                                                                         Fiscal Year Issued: 2001



Since its inception in 1953, the SBA has loaned or guaranteed billions of dollars to finance and spur in-
vestment in small businesses. In FY 2011, approximately 66 percent of loan dollars guaranteed by the
SBA were made using delegated authorities with limited oversight. Prior OIG and Government
Accountability Office reports disclosed weaknesses in the SBA’s oversight of its lending participants.
In a September 2012 audit report, the OIG found that during Agency onsite reviews, the SBA did not
always recognize the significance of lender weaknesses and determine the risks they posed to the
Agency. Additionally, the SBA did not link the risks associated with the weaknesses to the lenders’
corresponding risk ratings and assessments of operations. Further, the SBA did not require lenders to
correct performance problems that could have exposed the Agency to unacceptable levels of financial
risk. The risks inherent in delegated lending require an effective oversight program to (1) monitor
compliance with SBA policies and procedures, and (2) take corrective actions when a material
noncompliance is detected.
Since this management challenge was created in 2001, the SBA has made significant progress in its
oversight of lending participants. In FY 2013, the SBA (1) developed risk profiles and lender perfor-
mance thresholds, (2) developed a Select Analytical Review process to allow for virtual risk-based re-
views, (3) updated its lender risk rating model to better stratify and predict risk, and (4) conducted test
reviews under the new risk-based review protocol. These efforts have demonstrated that onsite reviews
are now conducted of the highest risk lending participants based on expanded selection criteria.
In FY 2013, the SBA also began improving its corrective action process. However, in order to fully
resolve this management challenge, the SBA must implement and demonstrate the effectiveness of the
process for monitoring and verifying lenders’ implementation of corrective actions.




Actions Accomplished (Green Status) During Past Four Fiscal Years                             09        10     11     12
                                       7a Program                                              0        0       0      1
                                       504 Program                                             0        0       0      1

                                                                                               Status at       Status at
                                                                                                End of          End of
Recommended Actions for Fiscal Year 2014
                                                                                              FY 2013—        FY 2013—
                                                                                                  7a             504
1. Expand the scope of lender oversight and improve the process for reviewing
                                                                                                Green           Green
   lenders and Certified Development Companies.
2. Implement guidance providing for effective supervision and enforcement.                      Green           Green
3. Monitor and verify implementation of corrective actions to ensure effective
                                                                                               Orange          Orange
   resolution prior to close-out.

Green -    Implemented      Yellow -     Substantial Progress   Orange -   Limited Progress     Red -        No Progress
 Challenge 6. The Section 8(a) Business Development program needs to be modified so more firms
 receive business development assistance, standards for determining economic disadvantage are
 justifiable, and the SBA ensures that firms follow 8(a) regulations when completing contracts.
                                                                                        Fiscal Year Issued: 2003


The SBA’s 8(a) Business Development (BD) program was created to assist eligible small disadvantaged
business concerns to compete in the American economy through business development. Previously, the
Agency did not place adequate emphasis on business development to enhance the ability of 8(a) firms to
compete, and did not adequately ensure that only 8(a) firms with economically disadvantaged owners in
need of business development remained in the program. Companies that were “business successes”
were allowed to remain in the program and continue to receive 8(a) contracts, causing fewer companies
to receive most of the 8(a) contract dollars and many to receive none.
The SBA had made progress towards addressing issues that hinder the Agency’s ability to deliver an
effective 8(a) program. For example, the SBA expanded its ability to provide assistance to program
participants through its resource partners —Small Business Development Centers, SCORE, and
Procurement Technical Assistance Centers. Further, the SBA revised its regulations, effective March
2011, to ensure that companies that are “business successes” are graduated out of the program.
However, the Agency has not yet completed updating its standard operating procedure for the Business
Development program to reflect these regulatory changes. These revised regulations also establish
additional standards to address the definition of “economic disadvantage,” however; the Agency has not
provided an economic analysis to justify these standards. In December 2011, the SBA also awarded a
contract to develop and deploy a new Information Technology system by December 2012 to assist the
SBA in monitoring 8(a) program participants. However, the new system has not been deployed and its
delivery date and capabilities are undetermined at this time.




Actions Accomplished (Green Status) During Past Four Fiscal Years                     09-0        10-0     11-0   12-0


Recommended Actions for Fiscal Year 2014                                               Status at End of FY 2013

1. Develop and implement a plan, including SOP provisions, which ensures that
   the 8(a) BD program identifies and addresses the business development needs                      Orange
   of program participants on an individualized basis.
2. Develop and implement Regulations and SOP provisions to ensure that
   participants are graduated once they reach the levels defined as business                        Yellow
   success.
3. Establish objective and reasonable criteria that effectively measures “economic
   disadvantage” and implement the new criteria.                                                     Red


 Green -      Implemented    Yellow -    Substantial Progress    Orange -      Limited Progress    Red -     No Progress
 Challenge 7. Effective tracking and enforcement would reduce financial losses from loan agent
 fraud.
                                                                        Fiscal Year Issued: 2000
For years, OIG investigations have revealed a pattern of fraud by loan packagers and other for-fee
agents in the 7(a) loan guaranty program. These schemes have involved hundreds of millions of
dollars, yet SBA’s oversight of loan agents has been limited, putting taxpayer dollars at risk. The
Agency could reduce this risk through effective loan agent disclosure requirements, a database or
equivalent means to track loan agent activity, updated regulations, new guidance for lenders, and a
registration system.
Tracking Loan Agent Data. In response to this Management Challenge, the SBA has proposed various
methods of tracking loan agent activity. The SBA eventually decided to capture the data by having
lenders fax a loan agent disclosure form (Form 159) to the SBA’s Fiscal and Transfer Agent (FTA) and
requiring the FTA to enter the data into a database accessible to the SBA. The Agency also began to
link Form 159 information with its loan data. Although there are some data problems, quality is
improving. Moreover, the new FTA contract is expected to emphasize data quality.
Updating Regulations. Critical features of any government enforcement program are effective
regulations and procedures. The SBA regulations governing enforcement actions against loan agents
were last revised in 1996 and are out of date. The SBA has advised that it is drafting new regulations.
Guidance Regarding Webpage. The Agency’s website now lists the names of loan agents and others
that have been named in SBA enforcement actions. However, the Agency has not provided guidance to
lenders to consult with this list in order to keep problematic loan agents from participating in the 7(a)
program. The SBA has stated that the issue will be resolved with the issuance of an SOP update.
Registration System. Although the SBA has developed a loan agent tracking system, this system is
hampered by loan agents not having been assigned unique identifiers. Thus, an agent suspended or
revoked by the SBA can easily change his or her business name or even personal name, and lenders
would not be able to verify the agent’s suspended or revoked status. Consequently, the SBA needs to
develop a system to assign a unique identifier to loan agents that participate in the 7(a) program.
According to the Agency, its Office of Credit Risk Management is exploring registration options. This
could include using an identifying number assigned by outside organizations such as the National
Mortgage Licensing System and requiring loan agents that are not part of this system to apply to the
SBA for a registration number.
Actions Accomplished (Green Status) During Past Four Fiscal Years                     09-0    10-0    11-0   12-1

Recommended Actions for Fiscal Year 2014                                              Status at End of FY 2013
1. Develop an effective method of disclosing and tracking loan agent involvement
                                                                                                 Yellow
   in SBA business loan programs.
2. Update regulations (13 CFR Part 103) regarding loan agents to provide effective
   enforcement procedures.                                                                           New

3. Issue guidance that lenders must (1) review SBA’s webpage list of loan agents
   that have been subject to an enforcement action and (2) refrain from doing
                                                                                                     New
   business with any agent appearing on the list during the time that an agent is
   suspended or revoked from the 7(a) program.
4. Implement a loan agent registration system, including the issuance of a unique
   identifying number for each agent.                                                                New

 Green -      Implemented     Yellow -   Substantial Progress   Orange -   Limited Progress   Red -    No Progress
 Challenge 8. The SBA needs to modernize its Loan Accounting System and migrate it off the
 mainframe.
                                                                                   Fiscal Year Issued: 2010


In November 2005, the SBA initiated the Loan Management and Accounting System (LMAS) project
to update the agency’s Loan Accounting System and migrate it off of the mainframe. An OIG report in
2005 noted that the system was close to the end of its expected useful life, relied on obsolete
technology, contained major security vulnerabilities that could not be addressed until the system was
moved to a new operating platform, and was costly to operate.
In 2013, the SBA continued its implementation of web-based user interface screens and has reduced
processing individual transactions on the mainframe by 92 percent and moved these transactions to
SBA’s web-based IT infrastructure. The SBA also completed converting its COBOL computer code
for its nightly accounting update cycle into COBOL code, which can be processed on a more modern
platform. The SBA also has a Funds Control IIP, which is part of the LMAS effort.
Previous OIG and GAO reports on the LMAS identified concerns about SBA’s management of the
project and the project’s noncompliance with the agency’s System Development Methodology in key
areas that impacted SBA’s ability to control project costs and quality. The reports also addressed the
lack of an enterprise-wide or project-level Quality Assurance (QA) functions to ensure that LMAS de-
liverables met the SBA’s requirements and quality standards.
The SBA had hired a QA contractor in 2011; however; QA reports were not submitted to the LMAS
Executive Steering Committee until FY 2013. In 2012, the SBA hired an Independent Verification and
Validation (IV&V) entity to ensure that LMAS deliverables met SBA requirements and quality
standards. However, the SBA did not fully stand-up its IV&V effort until 2013. In both QA and
IV&V, improvement has been identified in both quantity and quality of deliverables to LMAS project
managers, as well as reports to the LMAS Executive Steering Committee.



Actions Accomplished (Green Status) During Past Four Fiscal Years                   N/A      10-0     11-0   12-0


Recommended Actions for Fiscal Year 2014                                          Status at End of FY 2013
1. Migrate the Loan Accounting System to a new operating platform before the
                                                                                               Yellow
   current mainframe contract expires in 2013.
2. Modify the LMAS QA/IV&V contract and establish an effective QA process
   which provides senior management independent assurance that LMAS develop-                   Orange
   ment activities and related project deliverables meet SBA quality standards.
3. Establish a process for reviewing and accepting LMAS deliverables that
   complies with QA and Systems Development Methodology requirements. This
                                                                                               Orange
   includes hiring or fully staffing an IV&V entity to validate deliverable
   acceptance.
4. Implement a QA process in LMAS in accordance with the SBA’s Enterprise
                                                                                               Orange
   QA Plan.

 Green -     Implemented    Yellow -   Substantial Progress    Orange -   Limited Progress    Red -     No Progress
Challenge 9. The SBA needs to accurately report, significantly reduce, and strengthen efforts to
recover, improper payments in the 7(a) loan program.
                                                                          Fiscal Year Issued: 2010
Previous OIG audits have determined that reported improper payment rates for 7(a) loan approvals and
purchases were significantly understated. In FY 2011, the SBA’s reported improper payment rate for 7(a)
purchases was 1.73 percent, or $40.7 million, when the rate could have been as high as 20 percent, or about
$472 million. Furthermore, in FY 2011, the SBA reported no improper payments for 7(a) loan approvals.
However, a FY 2011 OIG audit estimated that at least 1,196 Recovery Act 7(a) loans were not originated
and closed in compliance with SBA requirements, resulting in at least $869.5 million in inappropriate or
unsupported loan approvals. The SBA’s improper payment rates were understated because the Agency did
not adequately review loans, used flawed sampling methodologies, and did not accurately project review
findings.
Further, recent OIG audits have identified 7(a) loans that were ineligible, lacked repayment ability, or not
properly closed. In 2012, we reported that the limited reviews of lender underwriting performed during
guaranty purchase reviews were contrary to SBA procedures, resulting in improper payments. We also
reported that high-dollar early-defaulted loans were not reviewed with the scrutiny required to identify
improper payments. In 2013, we reported that the SBA made $4.6 million of improper payments on high-
dollar early-defaulted 7(a) loans.
The Office of Capital Access (OCA) has taken actions to correct many of these deficiencies. The OCA has
(1) formalized its improper payment sampling; (2) demonstrated that its review process is effective for 7(a)
loan approvals; (3) formalized its process to review disputed cases; (4) formalized the recovery process and
time standards for 7(a) purchases; and (5) developed appropriate corrective action plans for 7(a) loans.
However, additional actions are needed. The OCA needs to establish repayment ability review requirements
that are effective at identifying improper payments. Additionally, OCA needs to demonstrate that its
process over disputed cases is ensuring adequate and timely resolution. Finally, OCA needs to demonstrate
that it is adhering to recovery time standards and that corrective action plans for the 7(a) loan program are
effective.

Actions Accomplished (Green Status) During Past Four Fiscal Years                      09         10       11     12
                              7a Loan Approvals                                       N/A         N/A      0        0

                              7a Loan Purchases                                      2N/A         N/A      0        0

                                                                                    Status at End Status at End
Recommended Actions for Fiscal Year 2014                                            of FY 2013— of FY 2013—
                                                                                      Approvals    Purchases
1. Ensure that processes used to calculate the improper payment rates for 7(a)
   loan approvals and purchases are designed and implemented to effectively
                                                                                        Green              Yellow
   identify improper payments as defined by Office of Management and Budget
   (OMB) Circular A-123.
2. Reassign responsibility for final approval of disputed denial, repair, and
   improper payment decisions from the Office of Financial Assistance to the
                                                                                            N/A            Yellow
   Office of Credit Risk Management to ensure an adequate and timely
   resolution of disputes.
3. Establish a process and time standards to expeditiously recover improper
                                                                                            N/A            Yellow
   payments identified during Agency reviews and OIG audits.
4. Demonstrate that corrective action plans are effective in reducing improper
                                                                                        Yellow             Yellow
   payments in the 7(a) loan program.
  Green -      Implemented    Yellow -   Substantial Progress    Orange -     Limited Progress     Red -    No Progress
Challenge 10. The SBA Needs to Significantly Reduce Improper Payments in the Disaster Loan
Program.
                                                                                      Fiscal Year Issued: 2012


Previous OIG audits of the SBA’s Disaster Loan program determined that the improper payment rates
reported for this program were significantly understated. The SBA estimated that improper payments in
the Disaster Loan program were about $4.5 million, or 0.55 percent of loans approved in FY 2007,
while the OIG reported that it was at least 46 percent, or approximately $1.5 billion. The SBA’s
improper payment rates were understated because the Agency did not adequately review sampled loans,
used flawed sampling methodologies, and did not accurately project review findings for the program.
Previously, Management Challenge 9 included both the Disaster Loan program and 7(a) program.
There were three recommended actions applicable to the Disaster Assistance Program. Of the three
recommended actions, one was implemented during FY 2010 and the two remaining actions were
implemented during FY 2011. One recommended action was to develop and implement a corrective
action plan to reduce improper payments. Although the Office of Disaster Assistance (ODA)
implemented the recommended action, the Agency has not achieved its reduction targets since
implementation. Specifically, the Agency missed its target goals of 16.7 percent for FY 2010,
20.0 percent for FY 2011, and 17.0 percent for FY 2012, instead reporting rates of 34.2 percent,
28.4 percent, and 17.9 percent, respectively.
At the end of FY 2011, a new recommended action was added requiring the SBA to demonstrate that
the corrective action plan is effective in reducing improper payments in the Disaster Assistance Pro-
gram.
The Agency has implemented an improved corrective action plan that specifically addresses root causes
and provides specific remedies, such as targeted training and inclusion of improper payments in
personal business commitment plans for employees. If properly implemented, we believe this course of
action should effectively reduce the improper payment rate in future years. The Agency’s internal
improper payment assessment for FY 2013 indicated a rate of 18.4 percent. This rate is higher than the
17 percent target rate necessary to achieve a rating of Green. Therefore, the color status for FY 2013 is
Yellow.




Actions Accomplished (Green Status) During Past Four Fiscal Years                   N/A         N/A      NEW   12-0

Recommended Actions for Fiscal Year 2014                                           Status at End of FY 2013

1. Demonstrate that corrective action plans are effective in reducing improper
   payments in the Disaster Loan program.                                                        Yellow

 Green -      Implemented    Yellow -    Substantial Progress    Orange -    Limited Progress    Red -    No Progress
Challenge 11: The SBA Needs to Effectively Manage the Acquisition Program.
                                                                       Fiscal Year Issued: 2013
In October 2010, the SBA realigned its acquisition program to address several significant deficiencies that
included compliance with laws and regulations, application of funding principles, contractor oversight, high staff
turnover, and measuring performance through validated metrics. Since that realignment, the SBA has taken steps
to improve the acquisition process, such as providing training to acquisition personnel, conducting annual
Advanced Acquisition Strategy planning, and using the Contract Review Board to inform acquisition decisions.
While the SBA has made limited progress, continuing challenges exist, including: (1) poorly defined requirements
(2) internal control deficiencies, (3) improper funding of contracts, (4) inadequate oversight and monitoring of
contractor performance, (5) high improper payments rate for contracting activities, and (6) an incomplete
acquisition standard operating procedure (SOP). For example, we identified instances where the SBA
inadequately planned and defined its requirements for the procurement of IT products and services. In addition,
while the SBA interfaced the contract management system, PRISM, with the financial system, JAAMS, users still
continue to experience system operations issues – exposing an internal control deficiency. The SBA also ratified
unauthorized commitments without determining whether unobligated funds were available when the unauthorized
commitment occurred, putting the SBA at risk for Anti-Deficiency Act violations. Moreover, the SBA continued
to inadequately monitor contract performance, which did not provide assurance that products and services were
delivered according to contract requirements. We also determined that the information presented in the SBA’s FY
2012 Agency Financial Report was inaccurate and the reported improper payment rate for FY 2012 disbursements
and contracting was incomplete. Furthermore, while the SBA updated its acquisition SOP, it does not include
procedures to use modular contracting for major system acquisitions or define post award contract administration
requirements, among other things.
Finally, while the SBA conducted an internal control review of its acquisition function consistent with OMB
Circular A-123, Appendix A, the Agency has not completed the acquisition assessment required in OMB’s
Memorandum for Chief Acquisition Officers: Conducting Acquisition Assessments under OMB Circular A-123,
May 21, 2008. This memorandum requires the use of a template to help agencies conduct a comprehensive and
standardized assessment. Use of the template further enables the SBA to leverage existing resources by
implementing an integrated management approach to internal control that focuses equally on the financial,
program, operational and administrative functional areas of the SBA, including acquisition .

Actions Accomplished (Green Status) During Past Four Fiscal Years                      N/A      N/A      N/A NEW

Recommended Actions for FY 2013                                                         Status at end of FY 2013
1. Complete an assessment of the Agency’s acquisition activities using the OMB’s
                                                                                                  Orange
   Guidelines for Assessing the Acquisition Function.
2. Create and implement a comprehensive improvement plan — based on the
   results of the acquisition function assessment — that has measurable goals,
                                                                                                  Orange
   objectives, prioritized actions and timeframes to address deficiencies identified
   in the organizational alignment and leadership assessment area.
3. Create and implement a comprehensive improvement plan — based on the
   results of the acquisition function assessment — that has measurable goals,
   objectives, prioritized actions and timeframes to address deficiencies identified              Orange
   in the acquisition policies and processes assessment area (i.e. acquisition
   management SOP).
4. Create and implement a comprehensive improvement plan — based on the
   results of the acquisition function assessment — that has measurable goals,
                                                                                                  Orange
   objectives, prioritized actions and timeframes to address deficiencies identified
   in the acquisition workforce assessment area.
5. Create and implement a comprehensive improvement plan — based on the
   results of the acquisition function assessment — that has measurable goals,
                                                                                                  Orange
   objectives, prioritized actions and timeframes to address deficiencies identified
   in the knowledge management and information systems assessment area.
  Green -     Implemented     Yellow -   Substantial Progress    Orange -    Limited Progress    Red -    No Progress
                                     Appendix: Relevant Reports

Most of the SBA OIG Reports listed can be found at http://www.sba.gov/office-of-inspector-general.

Challenge 1:
   OIG, SBA’s Planning and Award of the Customer Relationship Management Contracts, ROM 10-16,
    issued June 29, 2010.
   Interagency Task Force on Federal Contracting Opportunities for Small Businesses Report, issued
    September 2010.
   SBA Advocacy, Analysis of Type of Business Coding for the Top 1,000 Contractors Receiving Small
    Business Awards in FY 2002, issued December, 2004.
   The Center for Public Integrity, The Big Business of Small Business: Top defense contracting companies
    reap the benefits meant for small businesses, issued September 29, 2004.
   The Center for Public Integrity, The Pentagon’s $200 Million Shingle: Defense data shows billions in
    mistakes and mislabeled contracts, issued September 29, 2004.
   OIG, Audit of SBA's Administration of the Procurement Activities of Asset Sale Due Diligence Contracts
    and Task Orders, Report 4-16, issued March 17, 2004, pp. 8-9.
   GAO, Contract Management: Reporting of Small Business Contract Awards Does Not Reflect Current
    Busness Size, GAO-03-704T, issued May 7, 2003.
   The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Fred C. Armendáriz, Associate Deputy
    Administrator, SBA, issued May 7, 2003.
   The Small Business Committee, U.S. House of Representatives Hearing, Are Big Businesses Being Awarded
    Contracts Intended for Small Businesses? Testimony of Mr. Felipe Mendoza, Associate Administrator,
    Office of Small Business Utilization, U.S. General Services Administration, issued May 7, 2003.
   OIG, Review of Selected Small Business Procurements, Report 5-16, issued March 8, 2005.
   OIG, SBA Small Business Procurement Awards Are Not Always Going to Small Businesses,
    Report 5-14, issued February 24, 2005.

Challenge 2:
   OIG, Briefing Report for the FY 2012 Federal Information Security Management Act Review, Report 13-15,
    issued March 29, 2013.
   OIG, Audit of SBA’s FY 2012 Financial Statements, Report 13-04, issued November 14, 2012.
   OIG, Weakness Identified During the FY 2011 Federal Information Security Management Act Review,
    Report 12-15, issued July 16, 2012.
   OIG, Audit of SBA’s FY 2010 Financial Statements, Report 12-02, issued November 14, 2011.
   OIG, Weaknesses Identified During the FY 2010 Federal Information Security Management Act
    Review, Report 11-06, issued January, 28, 2011.
   OIG, Audit of SBA’s FY 2010 Financial Statements, Report 11-03, issued November 12, 2010.

Challenge 3:
   OPM, 2012 Federal Employee Viewpoint Survey.
   OPM, 2011 Federal Employee Viewpoint Survey.
   Partnership for Public Service, Best Places to Work in the Federal Government 2011.
   OPM, 2010 Federal Employee Viewpoint Survey.
   Partnership for Public Service, Best Places to Work in the Federal Government 2010.
   Partnership for Public Service, Best Places to Work in the Federal Government 2009.
   OPM, 2008 Federal Human Capital Survey.
   OIG, The Colorado District Office’s Servicing of 8(A) Business Development Program Participants,
    Report 10-15, issued September 30, 2010.
   OIG, Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement Function,
    ROM 10-13, issued April 9, 2010.
   GAO, Agency Should Assess Resources Devoted to Contracting and Improve Several Processes in the
    8(a) Program, GAO-09-16, issued November 2008.
   GAO, Opportunities Exist to Build on Leadership’s Efforts to Improve Agency Performance and Employee
    Morale, GAO-08-995, issued September 2008.
   OIG, Non-Native Managers Secured Millions of Dollars from 8(a) Firms Owned by Alaska Native
    Corporations through Unapproved Agreements that Jeopardize the Firms’ Program Eligibility, Report 8-14,
    issued August 7, 2008.
   GAO, Opportunities Exist to Improve Oversight of Women’s Business Centers and Coordination Among
    SBA’s Business Assistance Programs, GAO-08-49, issued November 2007.
   OIG, Audit of Two 8(a) Sole-Source Contracts Awarded to Contractors in SBA’s Mentor Protégé Program,
    Report 7-19, issued March 30, 2007.

Challenge 4:
   OIG, Purchase Reviews Allowed $4.6 Million in Improper Payments on 7(a) Recovery Act Loans,
     Report 13-16R, issued June 14, 2013.
   OIG, Evaluation of SBA’s Progress in Reducing Improper Payments in FY 2012, Report 13-13, issued
    March 14, 2013.
   OIG, The Small Business Administration’s Improper Payment Rate for 7(a) Guaranty Purchases Remains
    Significantly Understated, Report 13-07, issued November 15, 2012.
   OIG, A Detailed Repayment Ability Analysis is Needed on High-Dollar Early-Defaulted Loans to Prevent
    Future Improper Payments, Report 12-18, issued August 16, 2012.
   OIG, High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and Improved Quality
    Control at the National Guaranty Purchase Center, Report 12-11R, issued March 23, 2012.
   OIG, SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent and
    Reduce Improper Payments, Report 12-10, issued March 15, 2012.
   OIG, Origination and Closing Deficiencies Identified in 7(a) Recovery Act Loan Approvals, ROM 11-07,
    issued September 30, 2011.
   OIG, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of Questioned
    Costs, ROM 11-06, issued August 25, 2011.
   OIG, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating Huntington
    Learning Center Franchise Loans, Report 11-16, issued July 13, 2011.
   OIG, Material Deficiencies Identified in Four 7(a) Recovery Act Loans Resulted in $3.2 Million of
    Questioned Costs, ROM 11-05, issued June 29, 2011.
   OIG, America’s Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA’s Policies
    and Procedures, ROM 11-03, issued March 2, 2011.
   OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans,
    ROM 10-19 , issued September 24, 2010.
   OIG, SBA’s Management of the Backlog of Post-purchase Reviews at the National Guaranty Purchase Center,
    Report 9-18, issued August 25, 2009.
   OIG, The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a) Guaranty
    Loan Program, Report 9-16, issued July 10, 2009.
   OIG, Review of Key Unresolved OIG Audit Recommendations in Program Areas Funded by the American
    Recovery and Reinvestment Act and Related Activities Need to Safeguard Funds, ROM 09-1, issued
    April 30, 2009.
   OIG, Audit of the Liquidation Process at the National Guaranty Purchase Center, Report 9-08, issued
    January 30, 2009.
   OIG, Audit of Six SBA Guaranteed Loans, Report 8-18, issued September 8, 2008.
   OIG, Audit of Loan Classifications and Overpayments on Secondary Market Loans, Report 8-09, issued
    March 26, 2008.
   OIG, Audit of UPS Capital Business Credit’s Compliance with Selected 7(a) Lending Requirements,
    Report 8-08, issued March 21, 2008.
   SBA OIG, Audit of the Guarantee Purchase Process for Section 7(a) Loans at the National Guaranty
    Purchase Center, Report 7-23, May 8, 2007.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-17, issued March 12, 2007.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-15, issued February 12, 2007.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-10, issued January 16, 2007.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-09, issued January 9, 2007.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-07, issued December 29, 2006.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-06, issued December 28, 2006.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-05, issued December 20, 2006.
   OIG, Audit of an SBA Guaranteed Loan, Report 7-02, issued October 23, 2006.
   OIG, Audit of Deficiencies in OFA’s Purchase Review Process for Backlogged Loans, Report 6-35, issued
    September 29, 2006.
   OIG, Survey of the Quality Assurance Review Process, Report 6-26, issued July 12, 2006.

Challenge 5:
   OIG, Addressing Performance Problems of High-Risk Lenders Remains a Challenge for the Small Business
    Administration, Report 12-20R, issued September 28, 2012.
   OIG, SBA’s Oversight of SBA Supervised Lenders, Report 8-12, issued May 9, 2008.
   OIG, UPS Capital Compliance with Selected 7(a) Lending Requirements, Report 8-08, issued March 21,
    2008.
   GAO, Small Business Administration: Additional Measures Needed to Assess 7(a) Loan Program’s
    Performance, GAO-07-769, issued July 13, 2007.
   OIG, SBA’s Oversight of Business Loan Center, LLC, Report 7-28, issued July 11,2007.
   OIG, SBA’s Use of the Loan and Lender Monitoring System, Report 7-21, issued May 2, 2007.
   OIG, Audit of the Office of Lender Oversight Corrective Action Process, Report 7-18, issued March 14, 2007.
   GAO, Small Business Administration: Improvements Made, But Loan Programs Face Ongoing Management
    Challenges, GAO-06-605T, issued April 6, 2006.
   OIG, SBA’s Administration of the Supplemental Terrorist Activity Relief (STAR) Loan Program, Report 6-09,
    issued December 23, 2005.
   GAO, Small Business Administration: New Service for Lender Oversight Reflects Some Best Practices, But
    Strategy for Use Lags Behind, GAO-04-610, issued June 8, 2004.
   GAO, Continued Improvements Needed in Lender Oversight, Report 03-90, issued December 2002.
   OIG, Impact of Loan Splitting on Borrowers and SBA, Advisory Memorandum Report 2-31, issued
    September 30, 2002.
   OIG, Improvements needed in SBLC Oversight, Advisory Memorandum Report 2-12, issued March 20, 2002.
   OIG, Preferred Lender Oversight Program, Report 1-19, issued September 27, 2001.
   OIG, SBA Follow-up on SBLC Examinations, Report 1-16, issued August 17, 2001.

Challenge 6:
   OIG, Audit on the Effectiveness of the SBA’s Surveillance Review Process, Report 11-11, issued
    March 31, 2011.
   OIG, Audit of Two 8(a) Sole –Source Contracts Awarded to Contractors in SBA’s Mentor Protégé Program,
    Report 7-19, issued March 30, 2007.
   OIG, Audit of Monitoring Compliance with 8(a) Business Development Regulations During 8(a) Business
    Development Contract Performance, Report 6-15, issued March 16, 2006.
   OIG, Business Development Provided by SBA’s 8(a) Business Development Program, Audit Report 4-22,
    issued June 2, 2004.
   OIG, SACS/MEDCOR: Ineffective and Inefficient, Audit Report 4-15, issued March 9, 2004.
   OIG, Section 8(a) Program Continuing Eligibility Reviews, Report 4-3-H-006-021, issued September 30,
    1994.
Challenge 7:
   OIG, Applicant Character Verification in SBA’s Business Loan Program, Report 3-43, issued April 5, 2001.
   OIG, Summary Audit of Section 7(a) Loan Processing, Report 0-03, issued January 11, 2000.
   OIG, Loan Agents and the Section 7(a) Program, Report 98-03-01, issued March 31, 1998.
   OIG, Fraud Detection in SBA Programs, Report 97-11-01, issued November 24, 1997.
   OIG, Operation Clean Sweep, Memorandum, issued August 21, 1996.

Challenge 8:
   OIG, The Small Business Administration’s Loan Management and Accounting System Incremental
    Improvement Projects, Report 13-11, issued March 12, 2013.
   GAO, SBA Needs to Strengthen Oversight of Its Loan Management and Accounting System Modernization,
    GAO-12-295, issued January 2012.
   OIG, Adequacy of Quality Assurance Oversight of the Loan Management and Accounting System Project,
    Report 10-14, issued September 13, 2010.
   OIG, Review of Allegations Concerning How the Loan Management and Accounting System Modernization
    Project is Being Managed, Report 9-17, issued July 30, 2009.
   OIG, Planning for the Loan Management and Accounting System Modernization and Development Effort,
    Report 8-13, issued May 14, 2008.
   OIG, SBA Needs to Implement a Viable Solution to its Loan Accounting System Migration Problem,
    Report 5-29, issued September 20, 2005.
   GAO, Information Technology: Agencies Need to Improve the Accuracy and Reliability of Investment
    Information, GAO-06-250, issued January 12, 2006.
   GAO, Major Management Challenges and Program Risks: Small Business Administration, GAO-03-116,
    issued January 1, 2003.
   GAO, SBA Loan Monitoring System: Substantial Progress Yet Key Risks and Challenges Remain, Testimony
    of Joel C. Willemssen, Director, Civil Agencies Information Systems Accounting and Information.
    Management Division, Before the Subcommittee on Government Programs Statement Committee on Small
    Business, House of Representatives, GAO/T-AIMD-00-113, issued February 29, 2000.
   GAO, SBA Needs to Establish Policies and Procedures for Key IT Processes, Accounting and Information
    Management Division, GAO/AIMD-00-170, issued May 31, 2000.


Challenge 9:
   OIG, Purchase Reviews Allowed $4.6 Million in Improper Payments on 7(a) Recovery Act Loans,
    Report 13-16R, issued June 14, 2013.
   OIG, Evaluation of SBA’s Progress in Reducing Improper Payments in FY 2012, Report 13-13, issued
    March 14, 2013.
   OIG, The Small Business Administration’s Improper Payment Rate for 7(a) Guaranty Purchases Remains
    Significantly Understated, Report 13-07, issued November 15, 2012.
   OIG, A Detailed Repayment Ability Analysis is Needed on High-Dollar Early-Defaulted Loans to Prevent
    Future Improper Payments, Report 12-18, issued August 16, 2012.
   OIG, High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and Improved Quality
    Control at the National Guaranty Purchase Center, Report 12-11R, issued March 23, 2012.
   OIG, SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent and
    Reduce Improper Payments, Report 12-10, issued March 15, 2012.
   OIG, Origination and Closing Deficiencies Identified In 7(a) Recovery Act Loan Approvals,
    ROM 11-07, issued September 30, 2011.
   OIG, Material Deficiencies Identified in Five 7(a) Recovery Act Loans Resulted in $2.7 Million of Questioned
    Costs, ROM 11-06, issued August 25, 2011.
   OIG, Banco Popular Did Not Adequately Assess Borrower Repayment Ability When Originating Huntington
    Learning Center Franchise Loans, Report 11-16, issued July 13, 2011.
   OIG, Material Deficiencies Identified in Four 7(a) Recovery Act Loans Resulted in $3.2 Million of Questioned
    Costs, ROM 11-05, issued June 29, 2011.
   OIG America’s Recovery Capital Loans Were Not Originated and Closed In Accordance With SBA’s Policies
    and Procedures, ROM 11-03, issued March 2, 2011.
   OIG, Material Deficiencies Identified in Early-Defaulted and Early-Problem Recovery Act Loans,
    ROM 10-19, issued September 24, 2010.
   OIG, SBA’s Management of the Backlog of Post-Purchase Reviews at the National Guaranty Purchase
    Center, Report 9-18, issued August 25, 2009.
   OIG, The Small Business Administration’s Fiscal Year 2008 Improper Payment Rate for the 7(a) Guaranty
    Loan Program, Report 9-16, issued July 10, 2009.

Challenge 10:
   OIG, SBA Generally Meets IPERA Reporting Guidance but Immediate Attention Is Needed to Prevent and
    Reduce Improper Payments, Report 12-10, issued March 15, 2013.
   OIG, Evaluation of SBA’s Progress in Reducing Improper Payments in FY 2012, Report 13-13, issued
    March 14, 2013.

Challenge 11:
   OIG, The Small Business Administration’s Process Could Lead to Possible Anti-Deficiency Act Violations,
    Report 12-22, issued September 28, 2012.
   OIG, The Small Business Administration’s Inappropriate Use of the Government Purchase Card for
    Construction Purchases, Report 12-16, issued August 6, 2012.
   OIG, The SBA’s Improper Payment Review and Reporting for its Contracting Activities did not Comply with
    IPERA and IPIA Requirements During FY 2011, Report 12-07, issued March 8, 2012.
   OIG, Small Business Administration’s Funding of Information Technology Contracts Awarded to Isika
    Technologies, Inc., Report 11-14, issued June 2, 2011.
   OIG, SBA’s Procurement of Information Technology Hardware and Software through Isika Technologies,
    Inc., Report 11-08, issued February 25, 2011.
   OIG, SBA’s Planning and Award of the Customer Relationship Management Contracts, ROM 10-16, issued
    June 29, 2010.
   OIG, SBA’s Efforts to Improve the Quality of Acquisition Data in the Federal Procurement Data System,
    Report 10-08, issued February 26, 2010.
   OIG, Adequacy of Procurement Staffing and Oversight of Contractors Supporting the Procurement Function,
    ROM 10-13, issued April 9, 2010.
   OIG, Office of Business Operations Contracting Personnel Qualifications and Warrant Authority,
    Report 9-14, issued July 6, 2009.
   OIG, The SBA FY 2012 Reported Improper Payment Rate for Disbursements and Contracting was Inaccurate
    and Incomplete, Report 14-02, issued October 24, 2013.
